    Office of Inspector General

               for the 

    Railroad Retirement Board





Semiannual Report to the Congress



   October 1, 2012 ▪ March 31, 2013
	
                   UNITED STATES RAILROAD RETIREMENT BOARD


                              OFFICE OF INSPECTOR GENERAL



                                           April 30, 2013

The Honorable Michael S. Schwartz, Chairman
Railroad Retirement Board
844 North Rush Street
Chicago, Illinois 60611-2092

Dear Mr. Schwartz:

I am pleased to submit our Semiannual Report to the Congress. This report provides
a descriptive summary of our activities and accomplishments during the period of
October 1, 2012 through March 31, 2013. This report is submitted in accordance with
Section 5 of the Inspector General Act of 1978, as amended. The Act requires that
you transmit this report, along with any comments you may wish to make, to the
appropriate Congressional committees and subcommittees within 30 days.

During this reporting period, we:

   •	 completed our audit of the RRB’s fiscal year 2012 financial statements;
   •	 published our “Letter to Management” detailing matters related to internal
      control identified during the financial statement audit;
   •	 prepared our statement on Management and Performance Challenges Facing
      the Railroad Retirement Board;
   •	 published the results of our annual evaluation of the agency’s information
      security program;
   •	 audited the agency’s compliance with the Improper Payments Elimination and
      Recovery Act of 2010;
   •	 published our whitepaper on innovation leads to data analytics; and
   •	 completed and published two additional audit reports.

Our criminal investigators achieved 9 arrests, 57 criminal convictions, 20 indictments
and informations, 9 civil judgments, and more than $156 million in financial
accomplishments resulting from OI’s investigative work, including joint investigations.

The Office of Inspector General sincerely appreciates the ongoing assistance
extended to our staff during the performance of their audits and investigations.
We look forward to a continued cooperative relationship.

                                                  Sincerely,

                                                  Original Signed by
                                                  Martin J. Dickman
                                                  Inspector General
844 N RUSH STREET CHICAGO IL 60611-2092	                           Printed on recycled paper
                                                   Table of Contents

INTRODUCTION.......................................................................................................................... 1

   Railroad Retirement Board .......................................................................................... 1

   Board Members ........................................................................................................... 1

   Office of Inspector General.......................................................................................... 1

EXECUTIVE SUMMARY ............................................................................................................ 2

   Office of Audit .............................................................................................................. 2

   Office of Investigations ................................................................................................ 3

OCTOBER 1, 2012 – MARCH 31, 2013 ACCOMPLISHMENTS......................................... 4

   Office of Audit .............................................................................................................. 4

      Opinion on the Financial Statements ....................................................................... 4

      Report on Internal Control........................................................................................ 5

      Report on Compliance with Laws and Regulations .................................................. 6

      Material Weaknesses............................................................................................... 6

      Management and Performance Challenges Facing the Railroad Retirement Board 6

      Audit of Job Duty Verification Procedures for Long Island Rail Road Occupational

      Disability Applicants ................................................................................................. 7

      Fiscal Year 2012 Audit of Information Security at the Railroad Retirement Board . 10

      Audit of the Railroad Retirement Board’s Fiscal Year 2012 Compliance with the 

      Improper Payments Elimination and Recovery Act of 2010 ................................... 11

      Audit of Railroad Medicare Ambulance Charges ................................................... 13

      Management Decisions and Implementation ......................................................... 15

   Office of Investigations .............................................................................................. 16

      Current Caseload ................................................................................................... 16

      Caseload and Potential Fraud Loss By Case Type................................................ 17

      Investigative Accomplishments .............................................................................. 18

   Representative Investigations.................................................................................... 19

      Disability Investigations.......................................................................................... 19

      Unemployment-Sickness Insurance Investigations ................................................ 21

      Retirement-Survivor Benefits and Representative Payee Investigations ............... 22

      Railroad Medicare Investigations ........................................................................... 23

                                                  Table of Contents

       Civil Enforcement Results ...................................................................................... 24

   Hotline Contacts ........................................................................................................ 25

OTHER OVERSIGHT ACTIVITIES.........................................................................................26

   Occupational Disability Program................................................................................ 26

   OIG Alerts.................................................................................................................. 26

   Exploring Innovation Leads to Data Analytics............................................................ 27

   American Recovery and Reinvestment Act of 2009................................................... 28

OPERATIONAL ISSUES ..........................................................................................................28

   National Railroad Retirement Investment Trust ......................................................... 28

LEGISLATIVE & REGULATORY REVIEW............................................................................29

APPENDICES.............................................................................................................................30

   Appendix A – Office of Inspector General Reports and Other Publicly Available
   Papers Issued............................................................................................................ 31

   Appendix B – Audit Reports with Questioned Costs or with Recommendations That

   Funds be Put to Better Use ....................................................................................... 32

   Appendix C – Report on Receivables, Waivers, and Recoveries .............................. 33

   Appendix D – Significant Matters............................................................................... 35

   Appendix E – Peer Reviews ...................................................................................... 37

   Appendix F – Reports Prepared by Management...................................................... 38

   Appendix G – Reporting Requirements ..................................................................... 45

   Appendix H – Acronyms ............................................................................................ 46

   Appendix I – Legal References.................................................................................. 47

        Office of Inspector General for the Railroad Retirement Board

      INTRODUCTION
      Railroad Retirement Board
The Railroad Retirement Board (RRB) is an independent agency in the executive
branch of the Federal government. The RRB administers comprehensive disability,
unemployment-sickness insurance, and retirement-survivor benefit programs for the
nation's railroad workers and their families. These programs are codified under the
Railroad Retirement Act (RRA) and the Railroad Unemployment Insurance Act (RUIA),
respectively. During fiscal year (FY) 2012, the RRB paid approximately $11.5 billion in
retirement-survivor and unemployment-sickness benefits to roughly 600,000
beneficiaries.

The RRB also has administrative responsibilities for certain benefit payments under the
Social Security Act, including the administration of Medicare benefits for qualifying
railroad workers and dependents. Pursuant to statutory authority, the RRB, in
consultation with the Centers for Medicare and Medicaid Services, awards and monitors
the single nationwide Medicare Part B Services contract. During FY 2012, the Railroad
Medicare contractor paid approximately $849 million in Part B medical insurance
benefits on behalf of roughly 463,000 Railroad Medicare beneficiaries.

      Board Members

The RRB’s Board consists of three members who are appointed, with the advice and
consent of the Senate, by the President of the United States. One member is appointed
upon the recommendation of railroad employers; another member is appointed upon the
recommendation of railroad labor organizations; and the third, who is the Chairman, is
appointed to represent the public’s interest. Board Members’ terms are five years in
length and expire in staggered years.

      Office of Inspector General

The Railroad Retirement Solvency Act of 1983 amended the RRA to provide for an
Office of Inspector General (OIG) for the RRB. The 1988 amendments to the Inspector
General Act added the RRB to the list of covered agencies.



                       Semiannual Report to the Congress

                   October 1, 2012 – March 31, 2013 │ P a g e 1

       Office of Inspector General for the Railroad Retirement Board

The Inspector General is a Presidential Appointee, with Senate confirmation, who
serves as an independent and objective voice to both the RRB Board Members and the
Congress. It is the Inspector General’s responsibility to promote economy, efficiency,
and effectiveness in the RRB’s programs and operations. To that end, the OIG conducts
audits/evaluations, management reviews, and inspections of the RRB’s programs and
operations. As a product of its efforts, the OIG offers recommendations for agency
improvement to RRB management. The OIG also identifies and investigates cases of
waste, fraud, and abuse in the RRB’s programs and operations. The OIG works closely
with Federal prosecutors and makes the appropriate referrals for criminal prosecution,
civil prosecution, monetary recovery, or administrative sanctions.

The OIG has three operational components: the immediate Office of the Inspector
General, the Office of Audit, and the Office of Investigations. The OIG conducts
operations from several locations including the RRB headquarters in Illinois and
investigative field offices in California, Florida, Pennsylvania, New York, Texas, and
Virginia. These field offices provide increased investigative presence and aide in the
effective and efficient coordination of joint investigations with other Inspector General
offices and law enforcement agencies.

EXECUTIVE SUMMARY
       Office of Audit

The Office of Audit (OA) conducts financial, performance, and compliance audits and
evaluations/inspections of the RRB’s programs and operations. During this reporting
period, the OA:

   •	 completed its annual audit of the RRB's comparative financial statements for the
      FYs ended September 30, 2012 and 2011 along with the related reports on
      internal control and compliance;
   •	 prepared the Inspector General's statement of Management and Performance
      Challenges Facing the Railroad Retirement Board;
   •	 audited the RRB’s job duty verification procedures for Long Island Rail Road
      occupational disability applicants;
   •	 published the results of their annual audit of the RRB’s information security
      program;


                        Semiannual Report to the Congress

                    October 1, 2012 – March 31, 2013 │ P a g e 2

           Office of Inspector General for the Railroad Retirement Board

    •	 published their "Letter to Management" detailing matters related to internal
       control identified during the financial statement audit;
    •	 audited the agency’s compliance with the Improper Payments Elimination and
       Recovery Act of 2010; and
    •	 audited Railroad Medicare ambulance charges.

OA’s activities, during this reporting period, are discussed in further details on pages 4
through 14 of this report. All publicly available reports are available on our website at
www.rrb.gov/oig.

         Office of Investigations
The Office of Investigations (OI) focuses its efforts on identifying, investigating, and
presenting RRB benefit fraud cases for prosecution. OI conducts investigations
throughout the United States relating to:

    •	 the fraudulent receipt of RRB disability, unemployment-sickness, and retirement-
       survivor benefits;
    •	 Railroad Medicare fraud;
    •	 false reporting by railroad employers; and
    •	 criminal violations and misconduct by RRB personnel.

Investigative efforts can result in criminal convictions; civil judgments and penalties;
administrative recovery of program benefit funds; and/or administrative sanctions.

From October 1, 2012 through March 31, 2013, OI achieved:

    •	   9 arrests;
    •	   20 indictments and informations;
    •	   57 convictions;
    •	   9 civil judgments;
    •	   24 referrals to the Department of Justice; and
    •	   more than $156 million 1 in financial accomplishments.

1
  The total amount of financial accomplishments reflect fraud amounts related to programs administered exclusively by
the RRB and fraud amounts from other Federal programs such as Medicare or Social Security which were included in the
disposition resulting from the investigation.



                              Semiannual Report to the Congress

                          October 1, 2012 – March 31, 2013 │ P a g e 3

       Office of Inspector General for the Railroad Retirement Board


Defendants, in the aggregate, were sentenced to almost 5 years of prison, 38 years of
probation, and 300 hours of community service. Additional details regarding OI’s
activities are discussed on pages 16 through 24. Of particular interest, OI’s continuing
Long Island Rail Road occupational disability fraud investigation is discussed on
page 19.

      OCTOBER 1, 2012 – MARCH 31, 2013

      ACCOMPLISHMENTS

      Office of Audit
Congress established the OIG to provide independent oversight of the RRB. Within the
OIG, the mission of OA is to promote economy, efficiency, and effectiveness in the
administration of the RRB’s programs and operations; and to detect and prevent fraud,
waste, and abuse. Through the Inspector General, OA keeps Board Members and the
Congress informed of current and potential problems and deficiencies in the RRB’s
operations. OA also tracks the agency’s progress towards corrective action.

Brief summaries of all audits completed during this semiannual reporting period follow.

      Opinion on the Financial Statements
During this reporting period, OA completed its annual audit of the RRB’s comparative
financial statements for the FYs ended September 30, 2012 and 2011. Not only were
we unable to express an opinion regarding the RRB’s financial statements for the FYs
ending September 30, 2012 and 2011, we were also compelled to add a disclaimer to
our previously unqualified audit opinion for the RRB’s FYs 2011 and 2010 financial
statements. We were forced to issue this opinion based upon concerns we have
regarding the reliability of the National Railroad Retirement Investment Trust’s (NRRIT)
independently audited financial statements.

Even though the NRRIT’s net assets represent approximately 79% of the total assets
reported by the RRB for FYs 2012 and 2011, we are statutorily unable to audit their
financial statements and must rely solely on financial statements opined by independent
auditors retained by the NRRIT.


                        Semiannual Report to the Congress

                    October 1, 2012 – March 31, 2013 │ P a g e 4

        Office of Inspector General for the Railroad Retirement Board


During the course of our financial statement audit work, we discovered that the NRRIT’s
contracted audit firm received a peer review rating of pass with deficiency for its system
review report for the year ended March 31, 2011. They were cited for audit policies and
procedures adopted and related training not being sufficient to ensure consistent
performance and documentation of all necessary procedures on its non-SEC issuer
audit engagements and for not consistently demonstrating that sufficient procedures
were performed and/or documented in certain substantive areas.

The fact that the NRRIT audit was not sampled as part of their peer review does not
negate the deficiency finding and its potential impact on the NRRIT’s financial
statements especially since the RRB does not scrutinize NRRIT’s independent audit
process.

See page 28 for additional information regarding the NRRIT.

Report on Internal Control

In planning and performing the audit of the agency’s financial statements, OA
considered the RRB’s internal control over financial reporting and compliance. OA did
this to determine its procedures for auditing the financial statements and to comply with
Office of Management and Budget (OMB) audit guidance, and not to express an opinion
on internal control. OA reported the following.

   •	 With respect to previously reported control deficiencies, the RRB has made
      progress strengthening its information security program but this effort is not yet
      complete and remains an area of material weakness.
   •	 The previously reported material weakness for budgetary reporting continues to
      exist because agency efforts are not yet sufficient.
   •	 The RRB has corrected the previously cited material weakness for non­
      integrated subsystems by successfully implementing reconciliations for various
      non-integrated subsystems.




                        Semiannual Report to the Congress

                    October 1, 2012 – March 31, 2013 │ P a g e 5

        Office of Inspector General for the Railroad Retirement Board

        Report on Compliance with Laws and Regulations

OA’s audit of the RRB’s financial statements included tests of compliance with
selected provisions of laws and regulations, including laws governing the use of
budget authority, and other laws and regulations that could have a direct and material
impact on the RRB’s basic financial statements.

OA’s tests of compliance with selected provisions of laws and regulations disclosed
no instances of non-compliance that are reportable under either U.S. generally
accepted government auditing standards or OMB guidance. However, the objective
of the audit was not to provide an opinion on overall compliance with laws and
regulations; therefore, OA did not express an opinion.

        Material Weaknesses

During OA’s audit of the agency’s financial statements for the FYs ended
September 30, 2012 and 2011, they identified material weaknesses in the following
areas:

    •   information technology security – risk management framework;
    •   information technology security – configuration management; 2 and
    •   budgetary reporting.

The agency is working to address these identified areas.

        Management and Performance Challenges Facing the
        Railroad Retirement Board
OA’s Management and Performance Challenges Facing the Railroad Retirement Board
is published in RRB’s annual Performance and Accountability Report. This statement is
prepared pursuant to the Reports Consolidation Act of 2000 and the requirements of
OMB Circular A-136. This Circular requires OIGs to identify the most serious


2
 This material weakness was previously referred to as Information Technology Security Application and
Services.

                           Semiannual Report to the Congress

                       October 1, 2012 – March 31, 2013 │ P a g e 6

        Office of Inspector General for the Railroad Retirement Board

management challenges facing their parent agency and to briefly assess the agency’s
progress in addressing those challenges.

OA’s identification of challenges facing RRB management is based on recent audits and
evaluations; new congressional directives to prevent improper payments and fraud in
government programs; and continued lack of audit oversight for the NRRIT, a
multi-billion dollar investment enterprise. The following challenges were identified during
FY 2012:

   •   oversight and transparency of invested program assets;
   •   disability program integrity;
   •   financial impact of unilateral disability freeze cases;
   •   information technology security;
   •   budgetary reporting; and
   •   preventing and detecting improper payments.

       Audit of Job Duty Verification Procedures for Long 

       Island Rail Road Occupational Disability Applicants


OA conducted an audit of the RRB’s job duty verification procedures for Long Island
Rail Road (LIRR) occupational disability applicants.

In the fall of 2008, a series of news reports raised concerns about the large number of
workers from LIRR who applied and were approved by the RRB for occupational
disability benefits. The OIG had subsequently issued briefing reports related to these
findings. One particular report issued in November of 2011, titled Program
Vulnerabilities in the Railroad Retirement Board Occupational Disability Program,
revealed that occupational disability benefits were being awarded despite unverified job
information. The finding was expanded into this audit and resulted in the identification of
opportunities to improve the effectiveness of controls over the occupational disability
process.

The objective of the audit was to determine whether RRB disability examiners granted
occupational disability annuities (to LIRR employees) based on unverified job
information.




                        Semiannual Report to the Congress

                    October 1, 2012 – March 31, 2013 │ P a g e 7

       Office of Inspector General for the Railroad Retirement Board

Findings

Our audit determined that RRB’s disability examiners did not always verify job duty
information before granting occupational disability annuities. We identified nine
individuals who were approved for occupational disability annuities even though their
railroad employer, LIRR, did not return the Job Information Forms to the RRB. These
nine unverified annuities represent an estimated $3.8 million in financial risk to the
agency. The financial risks to the agency would be significantly higher if we considered
all railroad employers that did not return Job Information Forms.

In addition, the RRB’s policies and procedures, which are contained in the Disability
Manual, were not sufficient to ensure that the job information provided by LIRR
employees was appropriately verified by the railroad employer prior to the agency’s
occupational disability determinations.

Recommendations

To address the identified control weaknesses, we recommended that the Office of
Programs work with the agency’s three-member Board and/or the Disability Advisory
Committee and should do the following.

      •	 Modify occupational disability procedures to comply with the Code of Federal
         Regulations (CFR) and to ensure that every reasonable effort is made by the
         District Office staff and/or the Disability staff to obtain the Job Information
         Forms from the railroad employer during the established response period.
      •	 Revise the wording of the Job Information Forms using stronger language.
      •	 Send or route the Job Information Forms to the applicant’s direct supervisor,
         and require the direct supervisor to certify the information given in the space
         provided on the appropriate Job Information Form.
      •	 Consider extending the employer response period to forward the Job
         Information Forms and related documentation to the RRB.
      •	 Perform a study to determine the reasons for the railroad employers’ failure to
         return the Job Information Forms, and take corrective action to elicit better
         responses based on their findings.




                       Semiannual Report to the Congress

                   October 1, 2012 – March 31, 2013 │ P a g e 8

        Office of Inspector General for the Railroad Retirement Board

Management’s Response

The Office of Programs stated that they had one significant concern regarding the
report. They said that the report gives an incorrect impression with respect to the
relationship between the Board’s regulations as published in the CFR and the policies
and procedures used by disability examiners to evaluate applications for disability
benefits. They stated that both the regulations and the procedures were developed in
1997 as part of the same joint labor-management initiative and the procedures were
extensively reviewed at that time and properly reflect the regulations.

The Office of Programs also stated that they are unable to comment on the
recommendations made in the report at this time. They further stated that the
recommendations contained in the draft report differed from those discussed with OIG
audit staff in that the recommendations now state that the Office of Programs work with
“the agency’s three-member Board and/or the Disability Advisory Committee” to
implement the five recommendations in the report. Therefore, they stated that their
response as to concurrence or non-concurrence for each recommendation will be
delayed until they can confer with Board Offices.

RRB-OIG’s Comments on Management’s Response

We disagree with the Office of Programs’ statements that the report gives an incorrect
impression with respect to the relationship between the Board’s regulations as
published in the CFR and the policies and procedures used by disability examiners to
evaluate applications for disability benefits. Although we understand that the policies,
procedures, and regulations were developed jointly in 1997, we found that current
policies and procedures do not strictly adhere to the regulations in the CFR, and
consequently, do not fully meet the intent of the regulations.

With regards to the Office of Programs’ statements that the recommendations contained
in the draft report differ from those we discussed, we disagree. The recommendations
themselves did not significantly change. However, when the OIG met with the Office of
Programs to detail our audit findings, the Office of Programs management and staff told
us that they lacked the authority to change any of the policies and procedures regarding
disability determinations. Based on these statements and regulations which specify that
the (Disability Advisory) Committee shall periodically review, as necessary, the subpart
of the CFR and the Disability Manual (which contains the disability policies and
procedures) and make recommendations to the Board with respect to amendments to


                        Semiannual Report to the Congress

                    October 1, 2012 – March 31, 2013 │ P a g e 9

       Office of Inspector General for the Railroad Retirement Board

the CFR or the Disability Manual, we expanded the recommendation to include the
three-member Board and the Disability Advisory Committee.

Other Related Comments

In connection with the RRB’s compliance with the 1995 Paperwork Reduction Act, the
RRB submitted a comment request in the Federal Register which invited comments on
the RRB’s data collection forms for job duty information. In response to the request,
LIRR submitted a letter to the agency dated December 17, 2012. In this letter, LIRR
made recommendations that were similar to some of those contained in this audit
report.

      Fiscal Year 2012 Audit of Information Security at the
      Railroad Retirement Board
OA conducted an audit of information security at the RRB for FY 2012, which is
mandated by the Federal Information Security Management Act of 2002 (FISMA). The
objectives of this audit included testing the effectiveness of the information security
policies, procedures, and practices of a representative subset of the agency’s
information systems; and preparing a report on selected elements of the agency’s
information security program in compliance with the Department of Homeland Security’s
FY 2012 FISMA reporting instructions.

OA’s audit determined that the RRB continues to make progress in implementing an
information security program that meets the requirements of FISMA; yet a fully effective
security program has not been achieved. The significant deficiencies in the internal
control structure over the review of the agency’s contractor deliverables, associated with
the risk management framework, and the security configuration management program
remain unresolved. OA also noted some lesser deficiencies in the RRB’s security
program. In total, OA made 19 detailed recommendations to RRB management related
to the following.

   •	 Ensuring compliance with recommended system configuration requirements,
      including documenting all necessary deviations and adherence to change control
      procedures for maintaining testing and approval documentation.




                        Semiannual Report to the Congress

                   October 1, 2012 – March 31, 2013 │ P a g e 10

        Office of Inspector General for the Railroad Retirement Board

   •	 Strengthening Identity and Access Management by revising procedures to allow
      for the extension of equipment and account privileges based only on written
      documentation, and the retention of that documentation.
   •	 Revising procedures relating to Incident Response and Reporting in order to
      reduce delays in reporting potential personally identifiable information breaches.
   •	 Improving remediation of security weaknesses by developing time standards and
      controls for entering weaknesses and ensuring all data fields are completed in
      the agency-wide Plan of Action and Milestones, as well as providing access and
      training to new users.
   •	 Participation of all system owners in disaster recovery testing, comprehensive
      updates to the Business Impact Analysis and Business Continuity Plan
      documents, and the development of system specific contingency plans which
      show the test coverage and frequency.
   •	 Updating appropriate processes and procedures for security awareness training
      required for RRB employees and contractors.

Agency Management has agreed to take corrective actions for all recommendations.

      Audit of the Railroad Retirement Board’s Fiscal Year
      2012 Compliance with the Improper Payments
      Elimination and Recovery Act of 2010
On July 22, 2010, the President signed the Improper Payments Elimination and
Recovery Act of 2010 (IPERA), amending the Improper Payments Information Act of
2002, which is meant to achieve the President’s goal of reducing wasteful, improper
payments. Subsequently, OMB issued government-wide guidance on the
implementation of IPERA and mandated that each agency’s Inspector General annually
review improper payment reporting in the agency’s Performance and Accountability
Report (PAR) for the most recent fiscal year.

An improper payment is any payment that should not have been made or that was
made in an incorrect amount under the statutory, contractual, administrative, or other
legally applicable requirements. Incorrect amounts are overpayments or underpayments
that are made to eligible recipients. An improper payment also includes any payment
that was made to an ineligible recipient or for an ineligible good or service, or payments
for goods or services not received. For FY 2011, the RRB reported $10.9 billion in
outlays of which $65.6 million (0.59%) represents improper payments for the RRA

                        Semiannual Report to the Congress

                   October 1, 2012 – March 31, 2013 │ P a g e 11

       Office of Inspector General for the Railroad Retirement Board

program. The RRB also reported $129 million in outlays of which $9.3 million (7.2%)
represents improper payments for the RUIA program.

Key Findings

OA’s audit determined the following.

   •	 The RRB complied with the applicable IPERA reporting requirements.
   •	 The evaluation of the accuracy and completeness of the RRB’s improper
      payment data could not be assessed due to the lack of supporting
      documentation. Specifically we were unable to validate $49.2 million of the
      $65.6 million in improper payments reported for the RRA program and
      $8.1 million of the $9.3 million reported for the RUIA program. We also found that
      the RRB reports its outlay amounts on an inconsistent basis for the RRA and
      RUIA programs which could impact the improper payment reporting threshold.
   •	 The RRB’s performance in the reduction of RUIA improper payments has not
      been effective as it has risen to $9.3 million and is approaching the $10 million
      threshold.

Recommendations

We recommended that the Office of Programs should obtain and maintain (1) individual
debtor records that support the total improper payment amounts for the RRA and RUIA
programs; and (2) documentation to support the estimated outlay amounts for the RRA
and RUIA programs from the Bureau of Actuary.

Additionally, the Office of Programs should standardize their procedures for the RRA
and RUIA programs to ensure consistency of improper payment data reported on the
PAR and should identify and implement additional initiatives to reduce improper
payments for the RUIA program.

Agency Response

The agency concurred with our recommendations.




                       Semiannual Report to the Congress

                  October 1, 2012 – March 31, 2013 │ P a g e 12

        Office of Inspector General for the Railroad Retirement Board

      Audit of Railroad Medicare Ambulance Charges
OA conducted an audit of Railroad Medicare ambulance charges. Since April 2000, the
RRB has contracted with its nationwide contractor Palmetto GBA, LLC (Palmetto) to
process the Medicare Part B claims for Qualified Railroad Retirement Beneficiaries. As
of September 28, 2012, Palmetto was awarded contract responsibilities as the Railroad
Specialty Medicare Administrative Contractor.

The objective of this audit was to determine if adequate controls are in place to ensure
the medical review of Railroad Medicare ambulance charges in accordance with
Medicare’s coverage requirements.

Key Findings

OA identified the following weaknesses:

   •	 charges for Railroad Medicare ambulance services were not always subject to
      medical prepayment review;
   •	 Palmetto’s medical review strategy requires further implementation and 

      development; and

   •	 Palmetto’s provider education efforts have not effectively deterred medically
      unnecessary ambulance services.

Recommendations

To address the identified weaknesses, we recommend that RRB officials perform
additional oversight monitoring activities and conduct periodic reviews to ensure the
following.

   •	 Palmetto establishes an efficient means of widely addressing the volume

      workload of Railroad Medicare ambulance services to identify potentially

      improper or fraudulent payments utilizing medical prepayment reviews,

      post-payment reviews, and statistical analysis to maximize and expedite 

      recoupment.

   •	 Palmetto revises its medical review strategy to include a risk assessment
      identifying high risk providers and their error rates; a quantified universe of
      Railroad Medicare ambulance claims, services, and dollars-at-risk; and the
      utilization of increased data analysis and statistical sampling techniques.

                        Semiannual Report to the Congress

                   October 1, 2012 – March 31, 2013 │ P a g e 13

       Office of Inspector General for the Railroad Retirement Board

   •	 Palmetto administers progressive corrective action to Railroad Medicare
      providers in accordance with Centers for Medicare and Medicaid Services
      requirements. These contractor actions include identifying and directly
      addressing those high risk providers that abuse the system; and issuing timely
      referrals describing the abuse to those Medicare entities impacted.

Agency Response

The Office of Programs concurred with six of our recommendations and rejected four of
our recommendations. The Office of Programs; however, stated that Palmetto is
planning corrective action on three of the four rejected recommendations.




                       Semiannual Report to the Congress

                  October 1, 2012 – March 31, 2013 │ P a g e 14

          Office of Inspector General for the Railroad Retirement Board

        Management Decisions and Implementation
As part of its oversight activities, the OIG tracks the agency’s implementation of audit
recommendations. Additionally, OMB Circular No. A-50 (Revised) and the Inspector
General Act Amendments of 1988 require the reporting of management decisions and
corrective actions for all audit recommendations.

                                     Management Decisions
             Requiring Management Decision on October 1, 2012                           0
             Pending Management Decision for New
                                                                                        5
             Recommendations
             Management Decision on Previous Recommendations                            0
             Recommendations Pending Management Decision on
                                                                                        5
             March 31, 2013



                                         Corrective Action
             Recommendations Requiring Action on October 1, 2012                      194 3
             Recommendations Issued During Reporting Period                            43
             Corrective Actions Completed During Reporting Period                      30
             Recommendations Rejected During Reporting Period                           5
             Final Actions Pending on March 31, 2013                                  202




3
 Our previous Semiannual Report to the Congress reflected 195 final actions pending as of
September 30, 2012; however, this number has been adjusted per the Chief Financial Officer.

                           Semiannual Report to the Congress
                      October 1, 2012 – March 31, 2013 │ P a g e 15
          Office of Inspector General for the Railroad Retirement Board

         Office of Investigations

OI's primary objective is to identify, investigate, and refer for prosecution or monetary
recovery action cases of waste, fraud, or abuse in the RRB’s programs. OI also seeks
to prevent and deter program fraud by reporting systemic weaknesses identified through
investigative work. In order to maximize the impact of its resources, OI continues to
pursue cooperative investigative activities in coordination with other Inspectors General
such as the Office of Inspector General for the Department of Health and Human
Services and other law enforcement agencies, such as the Federal Bureau of
Investigation and the U.S. Secret Service.

         Current Caseload

During this semiannual reporting period, OI opened 87 new cases.

                                       Investigative Caseload Data
           Investigative Cases Open as of October 1, 2012                                        455
           Investigative Cases Opened During Reporting Period                                     87
           Investigative Cases Closed During Reporting Period                                    100
           Investigative Cases Open as of March 31, 2013                                         442

As of March 31, 2013, OI’s investigative case load totaled 442 matters which represent
approximately $131.3 million 4 in potential fraud losses. The chart located on the next
page reflects the distribution of OI cases and potential fraud losses by RRB major
program area.




4
  This reflects potential fraud amounts related to programs administered exclusively by the RRB and potential fraud
amounts from other Federal programs such as Medicare or Social Security which have been identified during OI’s joint
investigative work.



                              Semiannual Report to the Congress

                         October 1, 2012 – March 31, 2013 │ P a g e 16

          Office of Inspector General for the Railroad Retirement Board

        Caseload and Potential Fraud Loss By Case Type



               40 Cases
               $810,000

     60 Cases
     $2.4 Million                                               153 Cases
                                                                $2 Million


                                                                               Unemployment - Sickness
                                                                               Railroad Medicare
                                                                               Disability
                                                                               Retirement
                                                                               Other*




     122 Cases**                                           67 Cases
     $2 Million                                            $124.1 Million




*Other case type is an amalgam of various types of cases involving matters such as misconduct by RRB
employees, threats against agency employees, false reporting by railroad employers, and others.

**Our case tracking system counts the Long Island Rail Road occupational disability fraud investigation
(discussed in further details on page 19) as a single case; however, this case has the potential to
manifest into more than 1,000 investigations. Additionally, this potential is not reflected in the above fraud
loss.




                            Semiannual Report to the Congress

                       October 1, 2012 – March 31, 2013 │ P a g e 17

         Office of Inspector General for the Railroad Retirement Board

         Investigative Accomplishments

                                                                         October 1, 2012 –
                                     Action
                                                                          March 31, 2013
               Referrals to the Department of Justice                               24

               Indictments/Informations                                             20
               Arrests                                                               9
               Convictions                                                          57
               Civil Complaints                                                     11
               Civil Judgments                                                       9
               Restitution and Fines 5                                        $152 Million
               Civil Damages and Penalties 6                                    $202,510
               Investigative Recoveries 7                                     $3.7 Million
               Community Service Hours                                             300




5
  The total amount of financial accomplishments in this table reflect fraud amounts related to programs administered
exclusively by the RRB and fraud amounts from other Federal programs such as Medicare or Social Security which were
included in the disposition resulting from the investigation.
6
  See above footnote.
7
  RRB benefits that are overpaid due to fraud and can be recouped through RRB administrative recovery action are
expressed as investigative recoveries.



                              Semiannual Report to the Congress
                         October 1, 2012 – March 31, 2013 │ P a g e 18
             Office of Inspector General for the Railroad Retirement Board

           October 1, 2012 – March 31, 2013

           Representative Investigations


           Disability Investigations

    OI conducts fraud investigations relating to the RRB's disability program. Railroad
    workers who are awarded an RRB disability annuity are subject to work restrictions and
    earnings limitations. Disability benefit fraud often involves sophisticated schemes to
    hide disqualifying work activities from the RRB.

    During this reporting period, OI obtained 45 convictions in disability fraud cases. The
    defendants received, in the aggregate, sentences totaling almost 2 years of prison,
    11 years of probation, 300 hours of community service, and were ordered to pay more
    than $4.1 million in restitution, fines, and civil damages/penalties. Furthermore,
    20 additional individuals have pled guilty to charges stemming from our ongoing
    occupational disability fraud investigation described below. 8

    Descriptions of representative cases completed during this reporting period follow.

           A Total of Twenty-Three Defendants Plead Guilty in Connection
           with OI’s Continuing Long Island Rail Road Occupational
           Disability Fraud Investigation
As of March 31, 2013, 32 individuals have been indicted and arrested for their alleged
role in a brazen occupational disability fraud scheme involving former LIRR employees,
doctors, and disability facilitators. During this semiannual reporting period, an additional
20 individuals have pled guilty thereby bringing the total to 23 guilty pleas.

Of significant importance, these included a guilty plea entered by one of the doctors
implicated in the scheme. The doctor admitted to preparing medical narratives used to
fraudulently qualify LIRR employees for RRB occupational disability annuities. For his
role in this scheme, the doctor agreed to forfeit $116.5 million and to pay $116.5 million
in restitution. He faces a maximum of 30 years in prison and will be sentenced later this
year. In connection with the doctor’s guilty plea, the OIG has recommended that the

8
    All charges are accusations and the defendants are presumed innocent until proven guilty.



                                Semiannual Report to the Congress

                           October 1, 2012 – March 31, 2013 │ P a g e 19

       Office of Inspector General for the Railroad Retirement Board

RRB immediately terminate benefits (including Railroad Medicare coverage, if
applicable) for all RRB annuitants whose disability awards were granted based upon
fraudulent medical documentation submitted by this doctor. Termination of these
benefits will save the RRB millions of dollars in improper payments.

Additionally, the first LIRR defendant was sentenced on March 8, 2013. He was
sentenced to 20 months of prison, 3 years of supervised release, and more than
$247,000 in restitution.

This investigation remains ongoing.

      Annuitant Prosecuted Both Criminally and Civilly

Special Agents investigated an RRB disability annuitant who failed to report his partial
ownership of several successful businesses to the RRB. His failure to report this
information caused him to fraudulently receive approximately $93,000 in RRB disability
payments.

This case was referred to the United States Attorney’s Office for the Eastern District of
North Carolina which filed a criminal information against the annuitant. He subsequently
pled guilty to one count False Statement and was sentenced to 5 months of jail, 3 years
of probation, and full restitution. In addition to criminal prosecution, the United States
Attorney’s Office filed a civil False Claims Act complaint against the annuitant. He
entered into a settlement agreement with the United States Attorney’s Office agreeing to
pay $232,000.

      Annuitant Fraudulently Collected Disability Benefits
OI Special Agents investigated an RRB disability annuitant who failed to report his
income and excess earnings to the RRB. The annuitant’s failure to report this
information caused him to fraudulently receive more than $57,000 in disability
payments.

This case was referred to the United States Attorney’s Office for the Northern District of
California. The annuitant pled guilty to one count Theft of Government Property and was
subsequently sentenced to 300 hours of community service, full restitution, a fine, and a
special assessment.


                        Semiannual Report to the Congress

                   October 1, 2012 – March 31, 2013 │ P a g e 20

        Office of Inspector General for the Railroad Retirement Board

       Unemployment-Sickness Insurance Investigations

Unemployment-Sickness Insurance benefit fraud typically involves individuals claiming
and receiving Unemployment Insurance (UI) or Sickness Insurance (SI) benefits while
working or collecting state administered unemployment benefits. OI receives the
majority of these cases from the RRB’s Disability, Sickness, and Unemployment
Benefits Division as a result of information developed through state wage matching
programs. The RRB conducts computer wage matches with various states to identify
claimants who may have collected RRB administered UI or SI benefits on the same
days they received wages from a private employer or on the same days they received
state administered unemployment benefits.

Since the enactment of the American Recovery and Reinvestment Act of 2009 and
various other benefit extending legislation, OI has seen a substantial increase of
UI fraud referrals. In fact, more than 90% of OI’s current UI fraud cases involve
extended UI benefits.

During this reporting period, OI obtained eight convictions and eight civil judgments for
UI-SI fraud cases. Defendants in these cases received, in the aggregate, 22 years of
probation, and were ordered to pay almost $300,000 in restitution, fines, and civil
damages/penalties.

The following are examples of UI-SI cases completed during this reporting period.

       UI Claimant Enters into Pretrial Diversion
OI initiated an investigation of an RRB UI claimant based upon an agency referral. OI’s
subsequent investigation determined that during the period of October 2008 through
November 2009, the claimant applied for RRB UI benefits on many of the same days he
was working for a private employer. His actions resulted in the theft of more than
$11,000 in UI benefits.

This case was referred to the United States Attorney’s Office for the Northern District of
Illinois. The claimant entered into a 24 month Pretrial Diversion agreement with the
United States Attorney’s Office. Under this agreement, the claimant must pay full
restitution and report regularly to a U.S. Pretrial Services Officer for the duration of the
agreement or until full restitution has been paid to the government.


                         Semiannual Report to the Congress

                    October 1, 2012 – March 31, 2013 │ P a g e 21

       Office of Inspector General for the Railroad Retirement Board


       UI Claimant Fails to Report Work and Earnings to the RRB
OI initiated an investigation of an RRB UI claimant based upon an agency referral. OI’s
subsequent investigation determined that during the period of July 2009 through
February 2010, the claimant collected RRB UI benefits on the same days he was
working for private employers. The claimant’s failure to report his work and earnings to
the RRB caused him to fraudulently receive more than $10,000 in UI benefits.

This case was referred to the United States Attorney’s Office for the Northern District of
Ohio. The United States Attorney’s Office filed an one count information against the
annuitant for submitting False Claims to the RRB. He pled guilty and was sentenced to
1 day of jail and the immediate payment of full restitution.

       UI Claimant Agrees to Pay Treble Damages
OI initiated an investigation of an RRB UI claimant based upon an agency referral. OI’s
subsequent investigation determined that during the period of July 2010 through April
2011, the claimant applied for RRB UI benefits on the same days he was working and
being paid by a private employer. The claimant’s failure to report his work and earnings
to the RRB caused him to fraudulently receive more than $12,000 in UI benefits.

This case was referred to the United States Attorney’s Office for the District of Kansas.
The United States Attorney’s Office filed a civil complaint against the annuitant. This
case was subsequently settled for treble damages and the District Court entered a
consent judgment for over $38,000 against the claimant.

       Retirement-Survivor Benefits and Representative Payee
       Investigations
The RRA provides retirement-survivor benefits for qualified railroad workers and their
families. RRB retirement-survivor benefit fraud typically involves:

   •	 an individual failing to report information to the RRB that may disqualify the
      annuitant from receiving benefits;
   •	 instances of theft or fraudulent cashing of retirement benefit checks by someone
      other than the authorized RRB annuitant; or

                        Semiannual Report to the Congress

                   October 1, 2012 – March 31, 2013 │ P a g e 22

            Office of Inspector General for the Railroad Retirement Board

    •	 an individual designated to receive RRB benefits on behalf of an RRB annuitant
       fraudulently using the funds for their own personal use.

During this reporting period, OI recovered more than $7,000 in RRB benefits which
were improperly diverted by a representative payee.

         Railroad Medicare Investigations
During this reporting period, OI obtained three convictions in Railroad Medicare fraud
cases. Defendants in these cases received, in the aggregate, 3 years of prison, 5 years
of probation, and were ordered to pay more than $151.5 million in restitution, fines, and
civil damages/penalties. 9

All of OI’s active Medicare cases are being worked jointly with the Office of Inspector
General for the U.S. Department of Health and Human Services, the Office of Inspector
General for the Office of Personnel Management, or other agencies responsible for
investigating health care fraud. Interagency cooperation is imperative to effective law
enforcement especially among agencies responsible for investigating the complexities
of health care fraud.

Descriptions of representative cases completed during this reporting period follow.

         Qui Tam Lawsuit Settled for More than $15.3 Million
OI Special Agents worked cooperatively as members of a multi-agency team
investigating allegations contained in a Qui Tam lawsuit filed in the Western District of
Kentucky. Agents were able to substantiate the allegations contained in the Qui Tam.
Specifically the investigative team was able to prove that the subject medical provider
knowingly submitted false claims to the Medicare program for sleep diagnostic services
that were performed by individuals who lacked the required credentials. The U.S.
Attorney’s Office for the Western District of Kentucky intervened in the case.

The provider entered into a settlement agreement with the U.S. Attorney’s Office for the
Western District of Kentucky consenting to pay more than $15.3 million to the
government. Additionally, the provider entered into a comprehensive five year

9
  This total reflects the full amount of restitution, fines, and civil damages/penalties ordered. Since OI’s Railroad Medicare
fraud cases are joint investigations, the total dollar amount includes losses to other health care programs.

                                Semiannual Report to the Congress

                           October 1, 2012 – March 31, 2013 │ P a g e 23

          Office of Inspector General for the Railroad Retirement Board

Corporate Integrity Agreement with the U.S. Department of Health and Human
Services, Office of Inspector General.

         Pharmaceutical Company Pleads Guilty to Violation of the FDCA

OI worked cooperatively on a multi-agency team investigating allegations that a
pharmaceutical company aggressively marketed the off-labeling use of a drug in
violation of the Food, Drug and Cosmetics Act (FDCA). This investigation revealed that
the pharmaceutical company had promoted the off-label use even though the Food and
Drug Administration had rejected their application to utilize the drug in this manner.

The United States Attorney’s Office for the Eastern District of New York, the United
States Attorney’s Office for the Western District of Washington, and the Department of
Justice’s Consumer Protection Branch cooperated in the successful prosecution of the
pharmaceutical company which pled guilty to a single count information for violating the
FDCA. They agreed to pay a $136 million criminal fine and $14 million in criminal
forfeiture.

         Civil Enforcement Results
 OI may pursue civil actions to recover funds fraudulently obtained by annuitants or
 claimants. These civil actions are typically prosecuted under the provisions of the False
 Claims Act. This statute provides that the government may recover up to treble
 damages as well as $5,500 to $11,000 for each false claim submitted.

 During this semiannual reporting period, a total of 9 civil judgments were entered by
 U.S. District Courts for RRB fraud cases totaling more than $202,000 in damages and
 penalties. 10 Some of these civil actions are pursued under the Department of Justice’s
 Affirmative Civil Enforcement program which provides an efficient and effective means
 to address fraud against the RRB’s programs including the unemployment-sickness
 insurance program and the disability program.




10
  The total amount of damages and penalties listed reflects fraud amounts related to programs administered exclusively
by the RRB and fraud amounts from other Federal programs such as Medicare or Social Security which were included in
the disposition resulting from the investigation.



                              Semiannual Report to the Congress

                         October 1, 2012 – March 31, 2013 │ P a g e 24

       Office of Inspector General for the Railroad Retirement Board

      Hotline Contacts
Our office established its hotline to receive complaints concerning suspected fraud,
waste, and abuse in the RRB’s programs and operations. The hotline provides an open
line of communication for individuals to report suspected criminal activity and
mismanagement/waste of RRB funds.

During this reporting period, our hotline received 197 contacts in the following manner:
85% by telephone, 12% by email, and 3% by mail. The following chart summarizes the
disposition of hotline contacts received.




               Referred to the Office of                Referred to Another
               Investigations                           Agency or Company


                                           48

                                                 104

                                      45
           Hang Ups or Insufficient
           Information to Make an
           Appropriate Referral




                        Semiannual Report to the Congress

                   October 1, 2012 – March 31, 2013 │ P a g e 25

            Office of Inspector General for the Railroad Retirement Board


           OTHER OVERSIGHT ACTIVITIES

           Occupational Disability Program
The prevention of improper payments remains our priority and we continue to devote
investigative and audit resources to strengthening the integrity of the RRB’s benefit
programs including the occupational disability program. In fact, over the last several
years, the Inspector General has identified a wide range of recommendations to
strengthen the integrity of this program; however, a vast majority of these
recommendations have not been implemented and vulnerabilities continue to threaten
program integrity. 11

The agency owes it to the nation’s railroad workers and their families to fulfill their
mission by paying “benefits to the right people, in the right amounts, in a timely manner,
and … [taking] appropriate action to safeguard [their] customers’ trust funds.” 12

           OIG Alerts
In June 2012, the Inspector General began issuing OIG Alerts to the agency. OIG Alerts
supplement our current investigative and audit processes by providing the Inspector
General with a quick and efficient mechanism to suggest recommendations for agency
improvement. During this semiannual reporting period, the Inspector General issued
three OIG Alerts. These recommendations included:

        •	 enhancing certifications and fraud warnings on applications for Railroad 

           Medicare benefits;

        •	 requiring names of individuals contacting the agency with questions to be
           recorded;
        •	 amending controls in the RRB’s representative payee program to enhance the
           agency’s ability to assess an applicant’s suitability to serve as a representative
           payee; and


11
     See page 19 for details relating to our ongoing Long Island Rail Road occupational disability fraud investigation.
12
   Railroad Retirement Board, Mission Statement. (Chicago, Illinois: September 2003). Retrieved from
http://www.rrb.gov/general/mission.asp. Accessed March 31, 2013.

                                 Semiannual Report to the Congress

                            October 1, 2012 – March 31, 2013 │ P a g e 26

        Office of Inspector General for the Railroad Retirement Board

   •	 establishing a process, in situations where an RRB beneficiary does not live with
      their representative payee, to verify that RRB funds are actually being used for
      the needs of the beneficiary.

      Exploring Innovation Leads to Data Analytics
In response to the Federal government’s mandate to become more innovative, we
developed a data analytics team within OA to explore how the RRB does business while
considering best practices for streamlining agency business processes and developing
a new approach for identifying areas of change.

To meet our objectives, we:

   •	 researched innovative accomplishments of other government and private 

      organizations;

   •	 solicited ideas for innovation from OIG audit and investigative staff;
   •	 met with agency officials to discuss current practices;
   •	 visited with other Federal OIG organizations to observe and discuss their data
      warehousing accomplishments;
   •	 met with private consulting and data management firms to discuss methods and
      software tools they provide for data warehousing and analytics; and
   •	 met with private corporations and auditing organizations to discuss innovative
      advances they have made in the area of data analytics.

Based on our current level of staffing and resources, we determined the best approach
for implementing innovation and reducing waste, fraud, and abuse at the RRB is to start
with improving our own methods and abilities for data analytics. This would allow us to
implement data-mining and analytic techniques to support our audits and investigations
with minimal disruption to our normal operations. Additionally, efforts are underway at
the RRB to modernize their database systems; essentially, the beginnings for creating a
viable data warehouse. We are implementing a plan for data analytics using auditing
software which will allow us to identify opportunities for reducing waste, fraud, and
abuse, as well as areas for innovative change at the RRB.




                       Semiannual Report to the Congress

                  October 1, 2012 – March 31, 2013 │ P a g e 27

            Office of Inspector General for the Railroad Retirement Board


           American Recovery and Reinvestment Act of 2009
During this semiannual period, we continued our efforts to aide in a transparent
American Recovery and Reinvestment Act process by preparing monthly progress
reports in formats developed by the Recovery Accountability and Transparency Board.
These monthly reports are published on the Recovery.gov website and are also
available on the RRB’s Recovery Act Information webpage.

Since the enactment of the American Recovery and Reinvestment Act of 2009 and
various other benefit extending legislation, OI has seen a substantial increase of
UI fraud referrals. In fact, more than 90% of OI’s current UI fraud cases involve
extended UI benefits.

           OPERATIONAL ISSUES
The following operational issue impacts the OIG’s ability to effectively carry out its
oversight role. This issue would have to be remedied with legislative change.

           National Railroad Retirement Investment Trust
During this semiannual reporting period, we were unable to express an opinion
regarding the RRB’s financial statements for the FYs ending September 30, 2012 and
2011, and we were also compelled to add a disclaimer to our previously unqualified
audit opinion for the RRB’s FYs 2011 and 2010 financial statements. We were forced to
issue this opinion based upon concerns we have regarding the reliability of the NRRIT’s
independently audited financial statements.

The NRRIT is a tax-exempt entity independent of the Federal government which was
established by the Railroad Retirement and Survivors’ Improvement Act of 2001
(RRSIA) to manage and invest railroad retirement assets. 13 RRSIA does not provide
OIG with oversight authority to conduct audits and investigations of the NRRIT;
however, RRSIA does require that the NRRIT report to the RRB. We have monitored
the NRRIT since 2001 and have continually expressed concerns regarding lack of

13
     As of February 28, 2013, the RRB’s investments in the NRRIT were valued at approximately $24 billion.



                                Semiannual Report to the Congress

                           October 1, 2012 – March 31, 2013 │ P a g e 28

        Office of Inspector General for the Railroad Retirement Board

meaningful oversight. Despite these concerns and questionable long-term trust fund
solvency, the RRB continues to maintain a passive relationship with the NRRIT.

A lack of NRRIT investment fund management accountability, transparency, and
stringent financial oversight can be precursors to fraud, waste, and abuse. Within the
Federal agency spectrum there is no comparable example where Federal program
assets are completely outside of the jurisdiction of a Federal agency’s appointed
Inspector General. The NRRIT fund, which supports the railroad retirement program,
continues to remain outside the purview of those appointed to protect the interests of
the program’s beneficiaries and tax-paying public.

To ensure the integrity, economy, and long-term viability of the NRRIT, RRB
management must establish performance audit requirements that will strengthen
administrative and financial oversight and ensure fund transparency.

      LEGISLATIVE & REGULATORY REVIEW
The Inspector General Act of 1978, as amended, requires the Inspector General to
review existing and proposed legislation and regulations relating to the programs and
operations of the agency. The OIG has nothing to report for this reporting period.




                        Semiannual Report to the Congress

                   October 1, 2012 – March 31, 2013 │ P a g e 29

    APPENDICES

                                                                             Page
Appendix Title
                                                                              No.
   A      Office of Inspector General Reports and Other Publicly Available    31

          Papers Issued

   B      Audit Reports with Questioned Costs or with Recommendations         32

          that Funds be Put to Better Use

   C      Report on Receivables, Waivers, and Recoveries                      33

   D      Significant Matters                                                 35

   E      Peer Reviews                                                        37

   F      Reports Prepared by Management                                      38

   G      Reporting Requirements                                              45

   H      Acronyms                                                            46

   I      Legal References                                                    47





                   Semiannual Report to the Congress

              October 1, 2012 – March 31, 2013 │ P a g e 30

      Appendix A – Office of Inspector General Reports and Other
      Publicly Available Papers Issued
       •	 Report on the Railroad Retirement Board’s Fiscal Year 2012 Financial Statements,
          November 15, 2012

       •	 Audit of Job Duty Verification Procedures for Long Island Rail Road Occupational
          Disability Applicants, January 15, 2013

       •	 Fiscal Year 2012 Financial Statement Audit Letter to Management,

          January 28, 2013


       •	 Fiscal Year 2012 Audit of Information Security at the Railroad Retirement Board,
          February 12, 2013

       •	 Exploring Innovation Leads to Data Analytics Phase I, February 14, 2013

       •	 Audit of the Railroad Retirement Board’s Fiscal Year 2012 Compliance with the
          Improper Payments Elimination and Recovery Act of 2010, March 15, 2013

       •   Audit of Railroad Medicare Ambulance Charges, March 29, 2013

All publicly available audit reports and papers are available on our website at www.rrb.gov/oig.




                           Semiannual Report to the Congress

                      October 1, 2012 – March 31, 2013 │ P a g e 31

        Appendix B – Audit Reports with Questioned Costs or
        with Recommendations That Funds be Put to Better Use


                                                Audit Reports
                                                                Amount of         Amount of
                                                    with
                                                                Questioned       Unsupported
                                                 Questioned
                                                                  Costs             Costs
                                                   Costs
A. For which no management decision had
been made by October 1, 2012
                                                     0                 0               0
B. Which were issued from October 1, 2012
through March 31, 2013
                                                     3          $198.7 million   $198.7 million

Subtotal (A + B)                                     3          $198.7 million   $198.7 million
C. For which a management decision was
made between October 1, 2012 through                 2          $194.9 million   $194.9 million
March 31, 2013
    (i) dollar value of disallowed costs             0                 0               0
    (ii) dollar value of costs not disallowed        2          $194.9 million   $194.9 million
D. For which no management decision had
been made by March 31, 2013
                                                     1           $3.8 million     $3.8 million
E. Report for which no management
decision was made within six months of               0                 0               0
issuance




                                                           Audit Reports With
                                                           Recommendations
                                                                                  Dollar Value
                                                          that Funds Be Put to
                                                               Better Use
A. For which no management decision had been made by
October 1, 2012
                                                                   0                   0
B. Which were issued from October 1, 2012 through
March 31, 2013
                                                                   1               $112,600
C. Subtotal (A + B)                                                1               $112,600
    (i) dollar value of disallowed costs                           0                   0
    (ii) dollar value of costs not disallowed                      1               $112,600
D. For which no management decision had been made by
March 31, 2013
                                                                   0                   0
E. Report for which no management decision was made
within six months of issuance
                                                                   0                   0




                            Semiannual Report to the Congress

                       October 1, 2012 – March 31, 2013 │ P a g e 32

      Appendix C – Report on Receivables, Waivers, and
      Recoveries
The FY 1999 appropriations language for the OIG requires the reporting of additional
information concerning actual collections, offsets, and funds put to better use achieved
as a result of OIG’s activities.

                           Office of Investigations

                         Recoveries realized by the RRB
                          resulting from court-ordered
                          restitution and civil damages
                                                  Amount
                          Fiscal Year
                                                 Recovered
                              1999            $ 855,655
                              2000            $1,038,134
                              2001            $ 990,356
                              2002            $ 785,843
                              2003            $ 947,876
                              2004            $ 646,273
                              2005            $ 844,183
                              2006            $1,281,680
                              2007            $1,347,049
                              2008            $1,389,489
                              2009            $1,097,227
                              2010            $1,118,256
                              2011            $2,293,530
                              2012            $1,417,125
                       October 1, 2012 –
                                              $1,242,940
                        March 31, 2013




                        Semiannual Report to the Congress

                   October 1, 2012 – March 31, 2013 │ P a g e 33

                                              Office of Audit


                         Funds to be         Funds
                                                              Receivables                    Recoveries
              Report     put to better      Agreed by                                                 14
                                                              Established         Waivers     to Date
                              use          Management
                99-03          $50,850             $50,850              $50,850    $50,490          $360
                99-14          $83,000             $83,000              $34,423         $0       $30,584
                99-16     $48,000,000         $48,000,000                   $0          $0   $21,100,000
                99-17     $11,000,000         $11,000,000                   $0          $0    $1,604,545
                00-16         $235,000            $235,000               $0             $0      $253,846
                03-06         $306,129                 N/A               $0             $0      $306,129
                04-06         $821,000            $821,000         $604,429         $5,564      $629,688
                04-10         $400,000            $400,000                  $0          $0      $761,151
                05-03       $1,800,000          $1,800,000       $4,485,715 $339,244          $2,663,639
                05-06          $10,000             $10,000                  $0          $0       $42,915
                05-07       $1,070,000          $1,070,000              $49,943         $0       $94,049
                05-10       $2,600,000          $2,600,000                        $311,000
                06-04         $257,000            $257,000
                06-05            $2,100             $2,100                  $0          $0            $0
                06-06         $200,000            $200,000              $13,651         $0       $21,206
                09-02         $600,000            $600,000                $320          $0    $1,365,744
                10-09       $3,355,408          $3,355,408                  $0          $0    $3,355,408
                10-13         $212,038             $92,412                  $0          $0       $18,614
                12-03            $3,483             $3,483                  $0          $0        $3,483
                13-03         $112,600                   $0                 $0          $0            $0




14
     Both overpayments and underpayments are included in this column.



                                Semiannual Report to the Congress
                           October 1, 2012 – March 31, 2013 │ P a g e 34
         Appendix D – Significant Matters
The OIG has identified deficiencies in controls over budgetary reporting and information
security as significant matters. A summary of the issues and related recommendations
for corrective action follow.

                                         Budgetary Reporting
In FY 2011, we reported a material weakness for budgetary reporting and
recommended that the Bureau of Fiscal Operations (BFO) provide training for the
preparation of the statement and implement a review process to ensure the accuracy of
calculations, consistency in recorded amounts, and effectiveness of controls. In an effort
to address this material weakness, BFO staff conducted budgetary training for the
accountants in March 2012. Although BFO has made an effort to address this
weakness, the training was not sufficient to prevent the financial reporting errors found
in the June 30, 2012 Statement of Budgetary Resources. In addition, corrective action
remains to be taken regarding an improved review process to ensure the accuracy of
calculations, consistency in recorded amounts, and effectiveness of controls.

Issue Area                                         Date of Report                 Report and Recommendations
Budgetary Reporting                                January 31, 2012               Report OIG 12-04, #1 & 2


                                         Information Security
Risk Management Program
The OIG previously evaluated information security pursuant to the provisions of FISMA
and concluded that the RRB has not yet achieved an effective FISMA-compliant
security program. Although agency managers are working to strengthen controls,
management action in response to the following OIG recommendations had either not
been completed as of the end of the current semiannual reporting period or had not
been in place long enough to permit evaluation.
                                                                                                                     15
Issue Area                                            Date of Report            Report and Recommendations
Internal Control Over the Risk
                       16
Management Program                                   July 18, 2005              Report OIG 05-08, #4
                                                     September 30, 2008         Report OIG 08-05, #2 & 7
                                                     November 12, 2009          Report OIG 10-01, #1 & 5
                                                     September 28, 2011         Report OIG 11-10, #1 – 3
                                                     September 28, 2001         Report OIG 11-11, #1 – 4
                                                     September 29, 2011         Report OIG 11-12, #1 – 4
                                                     January 5, 2012            Report OIG 12-02, #2 & 5



15
   The online report abstract summarizes the results of the evaluation. The full report includes information protected from

disclosure and has been designated for limited distribution pursuant to 5 U.S.C. § 552.

16
   Previously known as Certification and Accreditation.


                               Semiannual Report to the Congress

                          October 1, 2012 – March 31, 2013 │ P a g e 35

Configuration Management
The OIG also identified a material weakness regarding information technology security
application services because the RRB continues to use an unsupported server for some
major applications. Although the agency has moved some of the servers to the virtual
environment, this action does not alleviate the problems associated with processing
data in an unsupported environment. Uncertainties exist in determining the timeframe in
which this situation will be corrected as well as the necessary resources for completion.
                                                                                                                     17
Issue Area                                            Date of Report            Report and Recommendations
Security Configuration Management                    January 5, 2012            Report OIG 12-02, #7 & 8




17
   The online report abstract summarizes the results of the evaluation. The full report includes information protected from
disclosure and has been designated for limited distribution pursuant to 5 U.S.C. § 552.

                               Semiannual Report to the Congress

                          October 1, 2012 – March 31, 2013 │ P a g e 36

      Appendix E – Peer Reviews
Section 989C of the Dodd-Frank Wall Street Reform and Consumer Protection Act
requires Inspectors General to provide information regarding peer reviews in their
Semiannual Reports to the Congress.

      Office of Audit
In general, Federal audit organizations may receive a peer review rating of pass, pass
with deficiencies, or fail.

The results of OA’s most recent peer review (which was for the year ended
March 31, 2012) were transmitted on November 21, 2012. OA received a peer review
rating of pass. This peer review did not contain any recommendations.
OA did not conduct any peer reviews during this semiannual reporting period.

      Office of Investigations
During the peer review process, Federal OIG investigative organizations, in general,
may receive a peer review rating of fully compliant, compliant, or not compliant with the
quality standards established by the Council of the Inspectors General on Integrity and
Efficiency and the Attorney General’s Guidelines for Inspectors General with law
enforcement authority based on Section 6(e) of the Inspector General Act, as amended.
The results of OI’s most recent peer review (which was for the FY ended
September 30, 2011) were transmitted on February 9, 2012. OI received a peer review
rating of pass. This peer review did not contain any recommendations.
OI did not conduct any peer reviews during this semiannual reporting period.




                        Semiannual Report to the Congress

                   October 1, 2012 – March 31, 2013 │ P a g e 37

       Appendix F – Reports Prepared by Management


                Final Action on Audits with Disallowed Costs
For the 6-Month Period Ending                             Number of      Disallowed
March 31, 2013                                           Audit Reports     Costs

A.	   Audit reports, with management decisions, on
      which final action had not been taken at the            0             $0
      beginning of the period.
B.	   Audit reports on which management decisions
      were made during the period.                            0             $0

C.	   Total audit reports pending final action during
      the period. (A + B)                                     0             $0

D.	   Audit reports on which final action was taken
      during the period.

      1.	   Recoveries

            (a) Collections and offsets	                      0             $0

            (b) Property	                                     0             $0

            (c) Other	                                        0             $0

      2.    Recovery Waived	                                  0             $0

      3.    Total of 1 and 2	                                 0             $0

E.	   Audit reports needing final action at the end of
      the period (C - D.3).                                                 $0
                                                               0




                          Semiannual Report to the Congress

                     October 1, 2012 – March 31, 2013 │ P a g e 38

                  Management Report on Final Action on Audits with
                  Recommendations to Put Funds to Better Use for the
                  6-Month Period Ending March 31, 2013
                                                                     Number of                 Funds to be Put
                                                                    Audit Reports               to Better Use
A.	     Audit reports, with management decisions, on
        which final action had not been taken at the
        beginning of the period.                                           6	                    $4,253,403*

B.	     Audit reports on which management decisions
        were made during the period.                                       1                        $3,483

C.	     Total audit reports pending final action during
        the period. (A - B)                                                5                     $4,249,920

D.	     Audit reports on which final action was taken
        during the period.

        1.	    Value of recommendations implemented 

               (completed)
                                                1	                       $3,483

        2.	    Value of recommendations that

               management concluded should not or

               could not be implemented (completed)
                       0	                         $0

        3.     Total of 1 and 2	                                           1                        $3,483

E.	     Audit reports needing final action at the end of
        the period                                                         5                     $4,249,920




      * Comprised of the following amounts: $2,100 from Audit Report 06-05, Review of Compliance with
      Provisions of the Railroad Retirement Act Governing the Initial Award of Benefits; $200,000 from Audit
      Report 06-06, Review of the Termination and Suspension of Benefits Paid Under the Railroad Retirement
      Act; $600,000 from Audit Report 09-02, Fiscal Year 2008 Financial Statement Audit Letter to
      Management; $3,355,408 from Audit Report 10-09, Audit of Internal Controls over Medicare Premium
      Transfers Between the Railroad Retirement Board and the Centers for Medicare and Medicaid Services;
      $92,412 from 10-13 Railroad Medicare Services Billed with Dates of Service after Beneficiaries’ Dates of
      Death; and $3,483 from 12-03 Evaluation of the Railroad Retirement Board’s Oversight of Railroad
      Employer Compliance.




                                 Semiannual Report to the Congress

                            October 1, 2012 – March 31, 2013 │ P a g e 39

Management Statement on Resolved Audit Reports Over 12 Months

      Old with Final Action Pending as of March 31, 2013

                                                   Disallowed Funds to be Put
Report                                   Date        Costs     to Better Use       Reason Action Not Completed
Review of Information Security at the   02/5/02      NONE          NONE       Information Services has closed 26 out
Railroad Retirement Board (02-04)                                             of 28 recommendations. Currently in
                                                                              the process of updating all pc’s and
                                                                              servers with new software and
                                                                              procedures are being reviewed.

Review of Internal Control Over the     05/5/05      NONE          NONE       The Chief Actuary is still reviewing their
Actuarial Projection Process (05-04)                                          options to best implement this
                                                                              recommendation.

Review of Access Controls in the End-   07/18/05     NONE          NONE       Information Services has closed 14 of
User Computing General Support                                                15 recommendations in this
System (05-08)                                                                confidential report. Risk assessment
                                                                              was done and it was determined that
                                                                              contractor assistance will remediate
                                                                              last remaining recommendation by
                                                                              FY2013.

Fiscal Year 2005 Evaluation of          09/28/05     NONE          NONE       Bureau of Information Services is
Information Security at the Railroad                                          taking steps to train IT owners to use
Retirement Board (05-11)                                                      SharePoint POAM website with the
                                                                              assistance of contractor. Work
                                                                              continues.

Accuracy and Reliability of GPRA        01/30/06     NONE          NONE       Programs have closed six of the seven
Performance Measures: Timeliness of                                           recommendations. Last
Non-Disability Survivor Annuity                                               recommendation has been delayed
Payments (06-03)                                                              due to higher priority project.

Review of Compliance with the           04/12/06     NONE          $2,100     Programs staff closed four of the five
Provisions of the Railroad Retirement                                         recommendations. Last
Act Governing the Initial Award of                                            recommendation on hold due to
Benefits (06-05)                                                              resources diverted to higher priority
                                                                              project.

Review of the Termination and           05/24/06     NONE         $200,000    Analysis completed and draft report
Suspension of Benefits Paid Under the                                         submitted for review prior to request for
Railroad Retirement Act (06-06)                                               IT changes. Coding work is in
                                                                              progress.

Review of Incident Handling and         08/24/06     NONE          NONE       Contract option to draft incident
Reporting at the Railroad Retirement                                          response plan was approved however
Board (06-09)                                                                 staff was reassigned to another project.
                                                                              Once project is done, work will proceed
                                                                              on this.



                                      Semiannual Report to the Congress

                                 October 1, 2012 – March 31, 2013 │ P a g e 40

Management Statement on Resolved Audit Reports Over 12 Months

      Old with Final Action Pending as of March 31, 2013

                                                      Disallowed Funds to be Put
Report                                      Date        Costs     to Better Use       Reason Action Not Completed
Audit of the DAISY/CHICO Component         03/9/07      NONE          NONE       Recent IT changes are pending review
Application of the RRA Benefit Payment                                           as resources were diverted to higher
Major Application System (07-02)                                                 priority projects.

Audit of the State Wage Match Data         03/28/07     NONE         NONE        Coordination with outside agencies is
Transmission Controls (07-04)                                                    required. Programs completed and
                                                                                 implemented one of the two remaining
                                                                                 recommendations. The last
                                                                                 recommendation is schedule to be
                                                                                 completed in FY13.

Evaluation of the Railroad Retirement      07/30/07     NONE         NONE        New CPO was appointed. Additional
Board’s Privacy Program (07-06)                                                  funding and resources are needed. Of
                                                                                 the 16 recommendations, 15 have
                                                                                 been closed. Work continues on last
                                                                                 recommendation.

Audit of Federal Income Taxes Withheld     07/30/07     NONE         NONE        Coordination is required with another
from Railroad Retirement Annuities                                               org. Five of the six recommendations
(07-07)                                                                          have been closed, with the remaining
                                                                                 one targeted for completion in FY13.

Fiscal Year 2007 Evaluation of             09/27/07     NONE         NONE        W ork continues and is targeted for
Information Security at the Railroad                                             completion in FY13.
Retirement Board (07-08)

Audit of Controls to Safeguard Sensitive   09/27/07     NONE         NONE        W ork and coordination continues along
Personally Identifiable Information                                              with outside contractor. Target for
(07-09)                                                                          completion is FY13.

Fiscal Year 2007 Financial Statement       03/6/08      NONE         NONE        Bureau of Fiscal Operations
Audit Letter to Management (08-01)                                               implemented enhanced controls in
                                                                                 FY10. OIG will reassess once sufficient
                                                                                 time has lapse.

Evaluation of Information Security for the 09/26/08     NONE         NONE        W ork plans, policy and/or procedures
RRB’s Financial Interchange Major                                                continue with target for completion in
Application – Abstract (08-03)                                                   FY13.

Fiscal Year 2008 Evaluation of             09/26/08     NONE         NONE        Coordination is required with outside
Information Security at the RRB (08-05)                                          contractor.




                                      Semiannual Report to the Congress

                                 October 1, 2012 – March 31, 2013 │ P a g e 41

Management Statement on Resolved Audit Reports Over 12 Months
      Old with Final Action Pending as of March 31, 2013
                                                      Disallowed Funds to be Put
Report                                       Date       Costs     to Better Use       Reason Action Not Completed
Fiscal Year 2008 Financial Statement       03/24/09     NONE        $600,000     Review and updating of
Audit Letter to Management (09-02)                                               documentations along with case
                                                                                 reviews are currently being performed
                                                                                 on remaining recommendations. Work
                                                                                 continues.

Audit of Internal Control Over Accounts    03/31/09     NONE          NONE       Remaining recommendation is
Payable (09-03)                                                                  dependent on the replacement of FFS.

Audit of the Railroad Medicare Integrity   09/25/09     NONE          NONE       Additional documentations were
Program at Palmetto Government                                                   requested which requires coordination
Benefits Administrators (09-04)                                                  with outside agency.

Audit of the General and Application       09/30/09     NONE          NONE       Of the 3 recommendations, 1 was
Controls in the Financial Management                                             closed by the OIG, 1 requires
Major Application System (09-05)                                                 additional work and the last is on hold
                                                                                 due to other priority workloads. Target
                                                                                 completion in FY13.

Fiscal Year 2009 Evaluation of             11/12/09     NONE          NONE       Contractor assistance is needed and
Information Security (10-01)                                                     as soon as all testing is completed
                                                                                 documentation will be sent to OIG for
                                                                                 review. Target completion in FY13.


Review of Statistical Methods Employed     05/04/10     NONE          NONE       The Bureau of Actuary (BOA) is
in the Financial Interchange                                                     reviewing documentation and will take
Determination (10-06m)                                                           the necessary action(s) and coordinate
                                                                                 with the Bureau of Information Services
                                                                                 for programming services.

Review of the Technical Approach and       05/19/10     NONE          NONE       The Bureau of Actuary is reviewing
Methodology Used to Determine the                                                documentation and will take the
Annual Financial Interchange Amount                                              necessary action(s).
for the Year Ended September 30, 2008
(10-07m)

Audit of Internal Controls over Medicare   05/21/10     NONE        $3,355,408   2 of the 4 recommendations have been
Premium Transfers Between the                                                    closed with 1 pending OIG review and
Railroad Retirement Board and Centers                                            the last is awaiting additional
for Medicare and Medicaid Services                                               documentation.
(10-09)




                                      Semiannual Report to the Congress

                                 October 1, 2012 – March 31, 2013 │ P a g e 42

Management Statement on Resolved Audit Reports Over 12 Months

      Old with Final Action Pending as of March 31, 2013

                                                       Disallowed Funds to be Put
Report                                        Date       Costs     to Better Use      Reason Action Not Completed
Review of the Accuracy of the Financial     05/25/10     NONE          NONE       The Bureau of Actuary is reviewing
Interchange as Executed for the Year                                              documentation and will take the
Ended September 30, 2008 (10-10)                                                  necessary action(s).

Audit of Unilateral Disability Freeze       08/12/10     NONE          NONE       Documentations were submitted to OIG
Determinations (10-11)                                                            for review on 3 recommendations and
                                                                                  the remaining 2 are awaiting Board
                                                                                  approval. Target completion in FY13.

Audit of the Account Benefits Ratio         09/29/10     NONE          NONE       The Bureau of Actuary reviewed and
(10-12)                                                                           will take the necessary action(s).

Railroad Medicare Services Billed with      09/30/10     NONE         $92,412     Coordination continues with outside
Dates of Service after the Beneficiaries’                                         organization.
Dates of Death (10-13)

Fiscal Year 2010 Evaluation of              11/05/10     NONE          NONE       Additional documentation was
Information Security at the Railroad                                              requested by OIG on last
Retirement Board - Abstract (11-01)                                               recommendation.

Audit of Controls Over Railroad             04/20/11     NONE          NONE       Coordination is required with outside
Medicare Contract Costs (11-06)                                                   organization.

Audit of Railroad Retirement Act            06/29/11     NONE          NONE       Programs is working with Bureau of
Benefits Overpayments and Internal                                                Information Services pending
Controls (11-07)                                                                  implementation of systems changes
                                                                                  and is coordinating with an outside
                                                                                  organization.

Review of the Railroad Retirement           07/07/11     NONE          NONE       Of the 12 recommendations, 2 required
Board’s Security Patch Management                                                 additional documentations, 5 are
Process – Abstract (11-08)                                                        awaiting new FTE replacement from
                                                                                  contractor, work continues on 1 and 4
                                                                                  have been closed.

Inspection of the Railroad Retirement       09/28/11     NONE          NONE       Bureau of Information Services is
Board’s Agency Enterprise General                                                 currently reviewing the
Information Support System                                                        recommendations to develop work
Certification and Accreditation –                                                 plans, policy, and/or procedures.
Abstract (11-10)




                                       Semiannual Report to the Congress

                                  October 1, 2012 – March 31, 2013 │ P a g e 43

Management Statement on Resolved Audit Reports Over 12 Months
      Old with Final Action Pending as of March 31, 2013
                                                   Disallowed Funds to be Put
Report                                    Date       Costs     to Better Use        Reason Action Not Completed
Inspection of the Railroad Retirement   09/28/11     NONE          NONE       Contract has been awarded and work
Board’s Financial Management                                                  is in progress.
System’s Continuous Monitoring
Program – Abstract (11-11)

Evaluation of the Railroad Retirement   09/29/11     NONE         NONE       Work plans, policy, and/or procedures
Board’s Benefit and Payment                                                  are currently pending, in addition to
Operations System Continuous                                                 coordination is required with outside
Monitoring – Abstract (11-12)                                                contractor.

Fiscal Year 2011 Evaluation of          01/05/12     NONE         NONE       Analysis deferred due to work
Information Security at the Railroad                                         committed to other priority project.
Retirement Board - Abstract (12-02)

Fiscal Year 2011 Financial Statement    02/31/12     NONE         NONE       Additional documentation was
Audit Letter to Management (12-04)                                           submitted on 1 recommendation and
                                                                             work is being reviewed on remaining
                                                                             recommendations.

Audit of the Application Express        03/30/12     NONE         NONE       Analysis is deferred due to work
(APPLE) System’s Date of Death                                               committed to other priority project and
Reliability (12-06)                                                          additional documentation was
                                                                             requested by OIG on 1
                                                                             recommendation.




                                    Semiannual Report to the Congress

                               October 1, 2012 – March 31, 2013 │ P a g e 44

       Appendix G – Reporting Requirements

Act Reference       Inspector General Reporting Requirements              Page(s)
Section 4(a) (2)    Review of Legislation and Regulations                     29
Section 5(a) (1)    Significant Problems, Abuses, and Deficiencies        35 – 36
Section 5(a) (2)    Recommendations With Respect to Significant           35 – 36
                    Problems, Abuses, and Deficiencies
Section 5(a) (3)    Prior Significant Recommendations Not Yet             35 – 36
                    Implemented
Section 5(a) (4)    Matters Referred to Prosecutive Authorities              3, 18
Section 5(a) (5)    Instances Where Information Was Refused                  None
Section 5(a) (6)    List of Audit Reports                                       31
Section 5(a) (7)    Summary of Each Significant Report                      4 – 14
Section 5(a) (8)    Statistical Tables on Management Decisions on               32
                    Questioned Costs
Section 5(a) (9)    Statistical Tables on Management Decisions on               32
                    Recommendations That Funds be Put to Better
                    Use
Section 5(a) (10)   Summary of Each Audit Report Over 6 Months                  15
                    Old for Which No Management Decision Has
                    Been Made
Section 5(a) (11)   Description and Explanation for Any Significant         None
                    Revised Management Decision
Section 5(a) (12)   Information on Any Significant Management                 4, 9
                    Decisions With Which the Inspector General
                    Disagrees



Act Reference       Management Reporting Requirements                     Page(s)
Section 5(b) (1)    Comments Deemed Appropriate                         Transmittal
                                                                             Letter
Section 5(b) (2)    Statistical Table on Final Action on Disallowed             38
                    Costs
Section 5(b) (3)    Statistical Table on Final Action to Put Funds to           39
                    Better Use
Section 5(b) (4)    Statement on Audit Reports With Final Action          40 – 44
                    Pending




                         Semiannual Report to the Congress

                    October 1, 2012 – March 31, 2013 │ P a g e 45

       Appendix H – Acronyms

Acronym     Explanation

BFO         Bureau of Fiscal Operations
CFR         Code of Federal Regulations
FDCA        Food, Drug and Cosmetic Act
FISMA       Federal Information Security Management Act of 2002
FY          Fiscal Year
IPERA       Improper Payments Elimination and Recovery Act of
            2010
LIRR        Long Island Rail Road
NRRIT       National Railroad Retirement Investment Trust
OA          Office of Inspector General for the Railroad
            Retirement Board – Office of Audit
OI          Office of Inspector General for the Railroad
            Retirement Board – Office of Investigations
OIG         Office of Inspector General for the Railroad
            Retirement Board
OMB         Office of Management and Budget
PAR         Performance and Accountability Report
RRA         Railroad Retirement Act
RRB         Railroad Retirement Board
RRSIA       Railroad Retirement and Survivors’ Improvement Act
            of 2001
RUIA        Railroad Unemployment Insurance Act
SI          Sickness Insurance
UI          Unemployment Insurance




                    Semiannual Report to the Congress

               October 1, 2012 – March 31, 2013 │ P a g e 46

      Appendix I – Legal References

Federal:
American Recovery and Reinvestment Act of 2009 – P.L. 111–5
Dodd-Frank Wall Street Reform and Consumer Protection Act – P.L. 111-203
False Claims Act – 31 U.S.C. §§ 3729 – 3733
False Statements – 18 U.S.C. § 1001, et. seq.
Federal Information Security Management Act of 2002 – 44 U.S.C. § 3531, et. seq.
Food, Drug and Cosmetics Act – P.L. 75-717
Improper Payments Elimination and Recovery Improvement Act of 2010 – P.L. 111-204
Improper Payments Information Act of 2002 – P.L. 107-300
Inspector General Act of 1978, as amended – 5 U.S.C. App. 3
Paperwork Reduction Act of 1995 – P.L. 104-13
Railroad Retirement Act – 45 U.S.C. § 231, et. seq.
Railroad Unemployment Insurance Act – 45 U.S.C. § 351, et. seq.
Railroad Retirement and Survivors’ Improvement Act of 2001 – P.L 107–90
Railroad Retirement Solvency Act of 1983 – P.L. 98–76
Reports Consolidation Act of 2000 – P.L. 106-531
Social Security Act – 42 U.S.C. § 301, et seq.
Theft of Public Money/Government Funds/Government Property – 18 U.S.C. § 641




                        Semiannual Report to the Congress
                   October 1, 2012 – March 31, 2013 │ P a g e 47
                        REPORT


       FRAUD, WASTE, AND ABUSE





               Call the OIG Hotline:

                      1-800-772-4258


              Email: hotline@oig.rrb.gov

 The OIG cannot ensure confidentiality to persons who provide
information via email. Do not send information by email that you
                do not want a third party to read.

            Write: RRB, OIG Hotline Officer

                   844 N. Rush Street

             Chicago, Illinois 60611-2092

